Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




 Monitoring of Ryan White CARE Act Title I
            and Title II Grantees




                     INSPECTOR GENERAL

                       MARCH 2004
                        OEI-02-01-00640
                OFFICE OF INSPECTOR GENERAL

                             http://www.oig.hhs.gov/


The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended,
is to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as
the health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:


Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.


Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in the inspections reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.


Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.


Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                          EXECUTIVE SUMMARY


OBJECTIVE

         To assess the role of the project officer in monitoring the Ryan White CARE Act Title I and
         Title II grantees’ programmatic performance.


BACKGROUND

         The Senate Finance Committee asked the Office of Inspector General (OIG) to review the
         Health Resources and Services Administration’s (HRSA’s) oversight of Ryan White
         Comprehensive AIDS Resources Emergency (CARE) Act Title I and Title II grantees and
         grantees’ oversight of their subgrantees. Hereinafter, these grantees are referred to as Title I
         and Title II grantees. As part of this request, the Committee asked OIG to also initiate audits of
         select grantees and subgrantees.

         The CARE Act provides funding to develop, organize, coordinate, and operate effective and
         cost-efficient health care and support services to medically underserved individuals and families
         affected by HIV/AIDS. Title I and Title II are the largest programs and are the focus of this
         inspection. Title I provides emergency relief grants to eligible metropolitan areas for
         community-based HIV-related services, and Title II provides grants to States, the District of
         Columbia, and the territories to improve the quality, availability, and organization of health care
         and support services.

         This report focuses on the role of the project officer in monitoring Title I and Title II grantees’
         programmatic performance in fiscal year (FY) 2000. We collected data in 2001 and 2002.
         The report does not address the role of the grants management officer, given that during the
         data collection period the grants management offices throughout HRSA were being
         consolidated, and it was, therefore, difficult to draw conclusions about their role.

         To assess project officers’ monitoring of Title I and Title II grantees, we compared their
         monitoring activities to the duties, as outlined in their position description, and in Monitoring
         Grants and Cooperative Agreements for Federal Personnel, the training manual used by
         Federal grants personnel. We reviewed documents that project officers used to monitor 20
         grantees. We also interviewed these 20 grantees, HRSA officials, and the 17 project officers
         responsible for these 20 grantees. Overall, these project officers provide oversight of 38 of the
         51 Title I grants and 21 of the 54 Title II grants. This inspection also produced a companion
         report, entitled The Ryan White CARE Act Title I and Title II Grantees’ Monitoring of
         Subgrantees, OEI-02-01-00641.


HRSA Monitoring of CARE Act Grantees                   i                                OEI-02-01-00640
FINDINGS

Title I and Title II project officers are not adequately monitoring the 20 selected
grantees

         Project officers do not consistently have grantees’ required progress reports or
         prepare grantee status reports. We found that project officers had progress reports for 8 of
         the 10 Title I grantees but none of the 10 Title II grantees. Additionally, we found that project
         officers had prepared only 15 status reports for the 20 selected grantees.

         Project officers report limited monitoring of grantees’ fiscal performance. None of the
         project officers could provide any documentation showing that they track the fiscal
         performance of the 20 grantees.

         Not all project officers use the grantee application as a monitoring tool. All 17 project
         officers report reviewing grantees’ annual applications; however, only 5 Title I project officers
         note that they use the application benchmarks to monitor grantees throughout the year.

         Project officers do not routinely conduct monitoring site visits, and therefore, do not
         verify information provided by grantees. Project officers had site visit reports for 10 of the
         selected 20 grantees for the last 2 years. Six of the 17 project officers note that travel
         restrictions implemented within their division prevent them from conducting site visits.

         Title II project officers are not involved in the process of setting special conditions to
         address vulnerabilities. Six of the eight Title I and none of the nine Title II project officers
         are involved in the process of setting special conditions of award. Special conditions change
         the grant requirements described in the notice of grant award to address specific vulnerabilities.

         Project officers, however, do report having frequent contact with grantees. Both Title I
         and Title II project officers report having frequent telephone and electronic mail (email) contact
         with grantees, and that they have more frequent contact with grantees who have issues or
         problems.

         Project officers do not focus on grantees’ monitoring of subgrantees. Only 5 of the 17
         project officers report that they routinely review documents that subgrantees submit to the
         grantee.




HRSA Monitoring of CARE Act Grantees                 ii                               OEI-02-01-00640
         Neither Title I nor Title II project officers can describe a standard corrective action
         process. None of the project officers had corrective action plans for any of the 20 selected
         grantees. Title I and Title II project officers were either unable to describe or gave inconsistent
         descriptions of a corrective action process.

HRSA provides limited support to project officers to systematically monitor
grantees

         Little guidance or training is provided on how project officers should monitor. The
         HIV/AIDS Bureau provides little guidance to project officers about how to specifically monitor
         Title I and Title II grantees. As a result, project officers monitor grantees differently.

         HRSA has initiated few corrective actions. HRSA does not frequently initiate corrective
         actions when grantees fail to meet grant requirements. Interviews with project officers provide
         additional evidence that the Bureau is reluctant to take action against grantees when there is a
         problem.

         Little continuity exists among project officers. Six of the 20 grantees say that a high
         turnover rate among project officers hinders monitoring. In addition, project officers are
         rotated every 2 years, making it unlikely that they ever conduct two monitoring site visits of the
         same grantee.

         Coordination between Title I and Title II project officers is limited. Most project
         officers note that they do not coordinate monitoring activities with the project officers from the
         other Title, even though the two Titles often fund the same subgrantees and have overlapping
         geographic areas.


RECOMMENDATIONS

         The findings are based on documents from 10 Title I and 10 Title II grantees and interviews
         with project officers who are responsible for 38 of the 51 Title I grants and 21 of the 54 Title II
         grants. These findings indicate that HRSA needs to strengthen its oversight of Title I and Title
         II grantees. We are aware that since this inspection was conducted, HRSA has consolidated
         its grants management offices, relocated most Title II monitoring responsibilities from regional
         offices to headquarters, and redefined the Office of Field Operations as the Office of
         Performance Review. These changes may better position the agency to address the following
         recommendations. Specifically, we recommend that HRSA:

         •	 Specify and enforce standards and guidelines for how project officers should monitor
            grantees

         •    Address ongoing training for project officers
HRSA Monitoring of CARE Act Grantees                  iii                              OEI-02-01-00640
         •    Standardize a corrective action process and address grantee issues more formally

         •    Increase frequency and comprehensiveness of site visits

         •    Improve project officer continuity

         •    Improve coordination between Title I and Title II oversight staff

Agency Comments

         We received comments on our draft report from HRSA. The full text of these comments can
         be found in Attachment C. HRSA concurs with our recommendations, and adds that significant
         administrative changes have occurred since this inspection was conducted. These changes may
         better position the agency to address the grantee monitoring activities discussed in this report.

         HRSA also describes several concerns with this report. In general, HRSA is concerned that
         the report does not distinguish between HRSA and the HIV/AIDS Bureau, the agency directly
         responsible for administering the Ryan White CARE Act. At the time data were collected, Title
         I grantees were monitored from the HIV/AIDS Bureau in the Rockville headquarters office,
         while Title II grantees were monitored from the Office of Field Operations in regional offices
         and outside of the HIV/AIDS Bureau. Instances where we address HRSA are meant to
         include both the HIV/AIDS Bureau and the Office of Field Operations. Additionally, HRSA is
         concerned that the report does not distinguish between Title I and Title II project officers. We
         do make distinctions in the report between the two, however, where differences were apparent
         in the data analysis.

         Finally, HRSA is concerned that our report does not address the role of the Grants
         Management Officer in monitoring CARE Act grants, adding that administrative restructuring of
         the Grants Management Office occurred in October 2003. We note in the report that the
         scope of our inspection is limited to the role of the project officer, and agree that the Grants
         Management Officer perspective would provide a more complete evaluation. However, during
         an interview conducted as part of the study design we were told that the office would be
         consolidated in June 2002. This interview was conducted in December 2001, and the decision
         to limit the scope of the inspection was made at that time.




HRSA Monitoring of CARE Act Grantees                 iv                              OEI-02-01-00640
                               TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


      Title I and Title II project officers are not adequately monitoring 

      selected grantees . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8


      HRSA provides limited support to project officers 

      to systematically monitor grantees . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


APPENDICES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


      Appendix A: HRSA/HAB Organizational Structure . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


      Appendix B: OIG Grants Oversight Framework . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


      Appendix C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31





HRSA Monitoring of CARE Act Grantees                                  v                                           OEI-02-01-00640
                                       INTRODUCTION

OBJECTIVE

          To assess the role of the project officer in monitoring the Ryan White CARE Act Title I and
          Title II grantees’ programmatic performance.


BACKGROUND

         In a letter dated August 2001, the Senate Finance Committee asked the Office of Inspector
         General (OIG) to review the Health Resources and Services Administration’s (HRSA’s)
         oversight of Ryan White Comprehensive AIDS Resources Emergency (CARE) Act grantees
         and grantees’ oversight of their subgrantees. News accounts have highlighted several instances
         of questionable spending by grantees and subgrantees that are now subject to Federal and
         State investigations. As a result, the Committee is concerned that HRSA may not be exerting
         clear and consistent oversight over its CARE Act grantees nor requiring, or otherwise
         monitoring, grantees’ oversight of their subgrantees.

         As part of this request, the Committee asked OIG to also initiate audits of select grantees and
         subgrantees. The purpose of these audits is to evaluate grantees’ administration of CARE Act
         funds and their oversight of subgrantees, and to assess subgrantees’ fiscal capability and
         performance. This report focuses on the role of the project officer in monitoring Title I and
         Title II grantees’ programmatic performance. The report does not address the role of the
         grants management officer, given that, during the data collection period, the grants management
         offices throughout HRSA were being consolidated, and it was, therefore, difficult to draw
         conclusions about their role. The focus on the project officer’s role in monitoring the
         programmatic performance also complements the financial audits being concurrently conducted
         within OIG.

         This report is a companion report to The Ryan White CARE Act Title I and Title II
         Grantees’ Monitoring of Subgrantees, OEI-02-01-00641, which focuses on how Title I and
         Title II grantees monitor subgrantees. We organized the reports in this way, as opposed to by
         Title, to better respond to the Senate Finance Committee’s two-part request, and because the
         overall findings apply to both Title I and Title II.

The CARE Act

         The CARE Act (Pub. L. 101-381) was passed in 1990, and reauthorized in 1996 (as Pub. L.
         104-146) and in 2000 (as Pub. L. 106-345). The legislation provides funding to States


HRSA Monitoring of CARE Act Grantees                1                               OEI-02-01-00640
         and other public and nonprofit entities to develop, organize, coordinate, and operate effective
         and cost-efficient health care and support services to medically underserved individuals and
         families affected by HIV/AIDS. The CARE Act distributes resources to various entities under
         four Titles and Part F. Title I and Title II are the largest programs and are the focus of this
         inspection.

         Title I

         Title I provides emergency relief grants to eligible metropolitan areas disproportionately
         affected by the HIV/AIDS epidemic. The Title I grantee is the Mayor or chief elected official.
         This official typically designates administrative authority for the CARE Act to the city or county
         health department, which may also be called the grantee. The grantee designates a planning
         council that is responsible for prioritizing the allocation of funds and makes awards to
         subgrantees according to the planning council’s decisions. Subgrantees may include hospitals,
         community-based organizations, hospices, ambulatory care facilities, community health centers,
         migrant health centers, homeless health centers, and substance abuse treatment and mental
         health programs.

         Title I funding includes formula and supplemental components. Formula grants are awarded
         based on the estimated number of people living with AIDS in the eligible metropolitan area over
         the most recent 10-year period. Supplemental grants are awarded competitively based on a
         demonstration of severe need and other criteria. In fiscal year 2001, 51 eligible metropolitan
         areas in 21 States, Puerto Rico, and the District of Columbia were awarded $604 million in
         formula and supplemental funds.

         Title II

         Title II provides grants to States, the District of Columbia, and the territories to improve the
         quality, availability, and organization of health care and support services for individuals and
         families with HIV/AIDS. The grantee for Title II is the Governor, and the administrative agency
         is the State Department of Health, which may also be the grantee. States distribute Title II
         funds to subgrantees, which are typically public or nonprofit providers and community-based
         organizations. The grantee distributes funds either directly or through consortia that are
         responsible for prioritizing Title II funds in their area. In fiscal year 2001, the States, the District
         of Columbia, and the territories were awarded $845 million in Title II grants.

         A portion of each State’s Title II funds must be used to establish an AIDS Drug Assistance
         Program (ADAP) to provide medications to low-income individuals with HIV/AIDS and their
         families. In fiscal year (FY) 2001, the ADAP portion of the Title II award totaled $571 million.




HRSA Monitoring of CARE Act Grantees                    2                                        OEI-02-01-00640
Federal Oversight

         The HIV/AIDS Bureau in HRSA is responsible for implementing Title I and Title II. At the
         time that the inspection was conducted, these programs were managed differently. The
         Bureau’s Division of Service Systems was responsible for monitoring and oversight of Title I
         grantees and ADAP. The Office of Field Operations, which included the 10 regional offices,
         was responsible for Title II grantees as well as other grants (see Figure 1 and Appendix A).

                                       Figure 1: Monitoring Responsibilities
                                          (Regional Responsibility Italicized)


                                                           CARE Act Program

             Responsibility                 Title I            Title II          Title II ADAP

             Program                   Division of         Office of Field    Division of Service
             Monitoring                Service Systems -   Operations -       Systems -
                                       Project Officer     Project Officer    Representative


             Fiscal                    Division of Service Systems - Grants Management Officer
             Monitoring


         In January 2003, HRSA announced that the Bureau’s Division of Service Systems would be
         responsible for both Title I and Title II. The Office of Field Operations, which had
         responsibility for Title II grantees, became the Office of Performance Review, and now serves
         as the focal point for reviewing and enhancing performance of HRSA-supported programs.

         Project Officer Monitoring Role

         The monitoring role of the project officer is described in the HIV/AIDS Bureau position
         description, and Monitoring Grants and Cooperative Agreements for Federal Personnel,
         the training manual used by Federal grants personnel (hereinafter referred to as the “Grants
         Training Manual”). According to Chapter 1.1 of the Grants Training Manual:

                   [M]onitoring is the process by which the programmatic and business
                   management performance of a grant is continuously reviewed by the program
                   official and the grants official. Monitoring methods include:
                   (1) conducting telephone checkups; (2) reviewing requests for prior approval;
                   (3) reviewing audits, financial status reports, progress reports,



HRSA Monitoring of CARE Act Grantees                       3                                     OEI-02-01-00640
                   and other written documents; and (4) conducting site visits.

         The Grants Training Manual also states that whereas the grants management officer has primary
         responsibility for ensuring grantees’ submission of all required reports and for monitoring the
         financial aspects of the grant, the project officer has primary responsibility for monitoring the
         grantees’ programmatic performance. Project officers review progress reports to ensure they
         contain minimum requirements, and are also expected to review the financial information in
         financial reports and relate it to the programmatic information in progress reports. The Grants
         Training Manual adds that the basic purpose of monitoring is to evaluate whether or not the
         recipient is carrying out the project in accordance with the Notice of Grant Award, and that
         grant and program officers “monitor recipient performance and compliance against the elements
         that make up the grant agreement.”

         HRSA further specifies the duties and responsibilities of Title I and Title II project officers in the
         following position description. The activities outlined below are those that are critical to
         monitoring both Title I and Title II grantees. Specifically, the project officer:

           1. Serves as a project officer for up to 12 grants. This includes the development of program
           guidance and notice of availability of funds, preparation of correspondence, alerting applicants
           of the application status, managing the grant objective review process, participating in the
           review of applications and providing telephone and on-site technical assistance to grantees,
           and conducting on-site program reviews.

           2. Provides a monitoring role to the grants assigned by being the focal contact point for all
           inquiries from the grantees. Maintains contact and is looked to as the expert on program
           requirements and on the status of assigned projects.

           3. Monitors, evaluates, and provides general technical assistance to grantees, and
           coordinates and implements technical assistance to grantees.

           4. Schedules and conducts site visits to assess the fulfillment of the grantees’ responsibilities.
           Makes recommendations regarding problems and program modifications. Monitors progress
           in addressing identified issues or problems and makes recommendations for continued funding
           or action to be taken, as appropriate.

         OIG Oversight Framework

         As part of its focus on grants oversight, OIG has developed an oversight framework that
         establishes monitoring fundamentals for Federal grants (see Appendix B). This framework is
         based on the Grants Administration Manual and the Grants Training Manual. The framework
         focuses on four areas: (1) requirements developed by the


HRSA Monitoring of CARE Act Grantees                   4                                        OEI-02-01-00640
         Operating Division that address program and financial progress; (2) reports generated by the
         grantee that are collected by the Operating Division; (3) review and verification of report
         information; and (4) enforcement authority used by the Operating Division to address identified
         issues. We used this framework to assess HRSA’s oversight of Title I and Title II grantees.



METHODOLOGY and ANALYSIS

         To assess project officers’ monitoring of Title I and Title II grantees, we compared how they
         are monitoring these grantees to the duties as outlined in their position description, the Grants
         Training Manual, Federal requirements, and our oversight framework. We present our findings
         for Title I and Title II together because project officers from both Titles are expected to monitor
         their grantees in a similar fashion and because the general findings apply to both Titles. We
         highlight differences between Title I and Title II when appropriate. Note that for the purposes
         of this report, we use the term subgrantees to refer to all sub-awardees of a grantee.

         We collected information about how project officers monitor grantees from several data
         sources: (1) a review of documents from 20 grantees, (2) interviews with the 17 project officers
         who are responsible for these grantees, (3) interviews with the 20 grantees, and (4) interviews
         with HRSA program officials.

Selection of Grantees

         This inspection is based on 10 of the 51 Title I grantees and 10 of the 54 Title II grantees. We
         selected these grantees based on several factors. Specifically, we ranked each Title I and Title
         II grantee separately according to funding level and grant longevity. We then selected 5
         grantees that were in the upper 10, and 5 in the lower 10, for each factor and from each Title.
         Further, we aimed to select at least one grantee from each area where HRSA has a regional
         office. We also included an eligible metropolitan area and its corresponding State for half of the
         grantees, and we made an effort to minimize our overlap with the grantees that were selected
         by the Office of Audit Services. We did not select the grantees based on their performance. In
         total, the 20 selected grantees represent 38 percent of Title I funds and 41 percent of Title II
         funds. A list of the selected Title I and Title II grantees is provided on the next page.




HRSA Monitoring of CARE Act Grantees                 5                                       OEI-02-01-00640
                                  Title I                              Title II
                          Los Angeles, CA
                           California
                          Atlanta, GA
                               Georgia
                          Minneapolis, MN
                           Minnesota
                          Philadelphia, PA
                          Pennsylvania
                          New York, NY
                              New York
                          Kansas City, MO
                           Alabama
                          West Palm Beach, FL
                       Massachusetts
                          Norfolk, VA
                               New Mexico
                          Seattle, WA
                               South Carolina
                          Las Vegas, NV
                             Utah



Document Review

         We reviewed key documents to assess the project officers’ monitoring of Title I and Title II
         grantees. To do this, we requested documentation from each of the project officers who are
         responsible for the 20 selected grantees. According to our framework, the Grants Training
         Manual, and the project officer position description, project officers should have access to key
         monitoring information and documents. We did not request the documentation from the official
         grantee file that is maintained by the grants management office because the focus of this
         inspection is on the project officer as opposed to the grants officer. We reviewed the
         information that was provided by each of the project officers using a structured instrument. The
         documents we reviewed included grant applications, progress reports, fiscal reports, site visit
         reports, corrective action plans, and other documents used to monitor grantees. We also
         reviewed the site visit protocols for Title I and Title II.

Interviews

         In total, at the time the inspection was conducted, there were 12 Title I project officers and 30
         Title II project officers.1 We conducted interviews with the 17 project officers who were
         responsible for monitoring the 20 selected grantees. Eight of these project officers were from
         Title I, and nine were from Title II. These project officers were responsible for monitoring a
         total of 38 of all 51 Title I grantees and 21 of all 54 Title II grantees. In our interviews, we
         asked project officers how they monitor their grantees and how they identify and address
         grantee issues. We conducted these interviews in April 2002.


         1
          These numbers are based on the information provided by the HIV/AIDS Bureau as of November 2001.


HRSA Monitoring of CARE Act Grantees                       6                                           OEI-02-01-00640
         We also interviewed the 20 selected Title I and Title II grantees. We asked them about how
         HRSA monitors their grant activities in order to understand their perspective and to verify
         project officers’ responses. We conducted these interviews between March and May 2002.

         Finally, we interviewed key program officials at the HIV/AIDS Bureau and at the former Office
         of Field Operations. These interviews provided mostly background information about Title I
         and Title II and how the programs are administered. We conducted these interviews in
         December 2001.

 Limitations

         This inspection focuses on the role of the project officer in monitoring the programmatic
         activities of the grantee. It does not address the grants management officers’ role in monitoring
         the grantees’ fiscal performance. One of the reasons that we limited the scope of the inspection
         is that the grants management office was being restructured at the time of the inspection. As of
         December 2002, HRSA consolidated the grants management office in the HIV/AIDS Bureau
         with the grants management offices in the other Bureaus.

Standards

         We conducted this inspection in accordance with the Quality Standards for Inspections
         issued by the President’s Council on Integrity and Efficiency.




HRSA Monitoring of CARE Act Grantees                7                                      OEI-02-01-00640
                                       FINDINGS

Title I and Title II project officers are not adequately monitoring the
20 selected grantees

Not all project officers have grantees’ progress reports or prepare grantee status
reports

         We found that not all project officers have progress reports for the 20 selected grantees.
         According to 45 CFR § 92.40 (1) and (2), grantees are required to prepare and submit
         progress reports (sometimes called technical or performance reports). Project officers are
         responsible for reviewing and maintaining these progress reports. Based on our documentation
         review, we found that project officers had progress reports for 8 of the 10 Title I grantees but
         none of the 10 Title II grantees. In addition, 5 of the 20 selected grantees were not sure
         whether their project officer routinely reviews their progress reports because they seldom
         receive feedback.

         Contrary to our document review findings, all 17 project officers say that they review every
         grantee’s progress report and that they rely on them to monitor grantees. They typically note
         that they check the reports to see whether they are consistent with the goals and objectives
         stated in the grantee’s application. Four believe, however, that the reports are not useful, do
         not provide a complete or current picture of what is happening, and are more for
         documentation purposes. As one project officer notes, “it is important to do it, but they write
         what they want you to see.”

         In addition, as part of their monitoring role, HRSA expects both Title I and Title II project
         officers to prepare quarterly grantee status reports. The grantee status report is important
         because it is where the project officer documents grantee progress in budgeting and meeting
         service goals. Based on our documentation review, we found that project officers had only 15
         status reports for the 20 grantees.

Project officers report limited monitoring of grantees’ fiscal performance

         According to Chapters 1.1.2 and 3.2.3 of the Grants Training Manual, project officers are
         required to coordinate with the grants management specialists who are responsible for
         collecting and reviewing grantees’ fiscal reports. Chapter 3.2.3 of the Grants Training Manual
         also specifies that project officers are required to monitor grantee goals and objectives, and
         also to analyze and explain cost overruns. However, we found that none of the project officers
         provided any documentation showing that they track the fiscal performance of the selected
         grantees. HRSA officials explain that fiscal monitoring is the


HRSA Monitoring of CARE Act Grantees                 8                                      OEI-02-01-00640
         role of the grants specialists and that project officers do not get involved, unless there is a
         problem or a grantee wants to carry over unspent grant funds into the next grant cycle.

         Several project officers report that they review the fiscal reports submitted by their grantees.
         Specifically, four mention that they review budgets and/or track overspending and
         underspending, and that this information gives them a complete picture of how the program is
         working. Five report that they typically do not get very involved in monitoring grantees’ fiscal
         performance, except when there is evidence of financial distress, or when the grantee has a
         carryover request.

         According to the Chapter 1.1.5 of the Grants Training Manual, the project officer is also
         responsible for working with the grants management specialist to make “appropriate
         recommendations for actions that could either help the grantee overcome financial distress or
         protect the financial interests of the agency if overcoming the financial distress is not possible.”
         Adverse audit findings may indicate that the grantee is in financial distress. None of the project
         officers mention that they had copies or did any review of audits submitted by the grantee. Our
         discussions with the grants management specialists further revealed that they review a sample of
         audits and findings, but approximately 2 years after the grant is awarded. Another official notes
         that no one in the Bureau reviews grantees’ audits.

Not all project officers use the grantee application as a monitoring tool

         According to HRSA project officer duties outlined in the position description, one of the
         primary responsibilities of project officers is to review grantee applications. The Grants
         Training Manual further states that the most important document against which compliance is
         measured (and, therefore, the most important monitoring benchmark) is the approved grant
         application.

         We found that all 17 project officers report that they review grantees’ annual applications.
         However, they report performing somewhat different types of reviews and not all use it to
         monitor their grantees. Only five of the eight Title I project officers note that they use the
         application benchmarks to monitor grantees throughout the year. They note that it is an
         important tool to help identify the grantee’s strengths and weaknesses that they then follow up
         on during the year. Title II project officers commonly report that they review the application
         only to see whether it is complete and meets the statutory requirements. In contrast, none of
         the Title II project officers mentions that they use the application as a monitoring tool. As one
         Title II project officer points out, the application does not really say much, partly because the
         grantee can note that there is “no change” from their previous application.




HRSA Monitoring of CARE Act Grantees                   9                                        OEI-02-01-00640
Title I and Title II project officers do not routinely conduct monitoring site visits
and, therefore, do not verify information provided by grantees

         Project officer duties include scheduling and conducting site visits to monitor the grantees’
         performance. Although there is no written policy for site visits, HRSA expects project officers
         to conduct a formal site visit to each grantee every 18 months. Project officers had site visit
         reports for only 10 of the 20 selected grantees for the last 2 years. They conducted a total of
         15 site visits over 4 years for these 20 grantees (see Figure 1). Site visits are the best way that
         project officers verify the information that grantees submit about their programs. Because site
         visits are not regularly conducted, project officers must rely on information that grantees self-
         report that is not verified in any way.

                                              Figure 1

                         Number of Grantees that had Site Visit Reports (n=20)



                                              1999       2000    2001     2002       Total

                         Title I                1            3    0         2          6

                         Title II               0            1    4         4          9
                    Source: OEI Documentation Review, 2002


         Our review of the 15 site visit reports from Title I and Title II shows that none of these reports
         included a completed checklist that is part of HRSA’s recommended site visit protocol. In
         order to understand what project officers do on-site, we asked them to describe their site visit
         activities. We found that project officers perform different types of reviews. Seven of the 17
         project officers note that they review the grantee’s contract and/or a sample of contracts. Four
         review the grantee’s procedure manuals, grievance policies, and hiring practices. Seven of the
         17 mention reviewing fiscal information, including budgets and invoices, and other documents.
         Only one project officer describes conducting a review of administrative, fiscal, and data
         systems.

         We also found several differences between Title I and Title II project officers’ approaches to
         site visits. In general, Title I project officers review a greater number of documents and seem
         to focus on challenging grantees and asking them tough questions. In contrast, Title II project
         officers see their role as a broker or resource who monitors by listening to concerns and
         making suggestions. Title II project officers are also more likely to focus on building
         relationships with the grantee.

         Six of the 17 project officers note that travel restrictions implemented within their division
         prevent them from conducting site visits according to the 18-month schedule. Six project
         officers further explain that site visits are not seen as a priority by HRSA

HRSA Monitoring of CARE Act Grantees                     10                                    OEI-02-01-00640
         officials. As one project officer notes, “senior staff does not understand the need to get out
         face-to-face.” Project officers commonly emphasize the value of site visits, which are the only
         way to find out what the grantee is really doing with their grant money. Seven of the 17
         specifically mention the lack of site visits as a primary concern with HRSA’s oversight of
         grantees. They add that more site visits would be helpful and would improve the operation of
         their program.

Title II project officers are not involved in the process of setting special conditions
to address vulnerabilities

         A special condition is a unique requirement on the grant to address a vulnerability and is an
         important aspect of monitoring grantee performance, because it changes the requirements of the
         grant established by the notice of award. As part of the application process, project officers
         may recommend that the grants management office set a special condition on the grant award,
         which is lifted when the grantee meets the condition. We found that not all project officers are
         involved in the process of setting special conditions of award.

         Seven of the eight Title I project officers report that they submit recommendations such as
         setting a special condition to the grants management office, which generally “trusts our
         professional judgment and usually follows our lead.” In contrast, only one of the nine Title II
         project officers report that they make recommendations to this office. In fact, three Title II
         project officers suggest that they are not involved in the process or that their comments do not
         have any bearing on special conditions that are set. Further, our documentation review shows
         that six of the eight Title I project officers had documentation about setting a condition of
         award, and none of the nine Title II project officers had such documentation.

Project officers, however, do report having frequent contact with grantees

         A key responsibility of project officers is to maintain constant contact with grantees. Both Title
         I and Title II project officers report having frequent contact with grantees, primarily through
         telephone calls and electronic mail. Almost all project officers report discussing the grant with
         each of their grantees at least monthly, and often more frequently. Project officers also report
         that they have more frequent contact with grantees that have issues or problems. Grantees
         generally confirm project officers’ responses. Fifteen of the 20 selected grantees report
         discussing the grant with the project officer at least monthly. Five of the grantees say that their
         contact has been less frequent and more sporadic.

         Fourteen of the 17 project officers note that frequent communication is what they rely on to
         know whether a grantee is misusing funds. They explain the importance of talking to




HRSA Monitoring of CARE Act Grantees                 11                                       OEI-02-01-00640
         various people involved in the grant, following up on any complaints, and encouraging those
         involved to discuss any problems.

Title I and Title II project officers do not focus on grantees’ monitoring of
subgrantees

         Since there is no written standard governing project officer review of subgrantees, we asked
         the 17 project officers how they monitored subgrantee activity. We found that only five project
         officers report that they routinely review documentation that subgrantees submit to the grantee.
         Project officers more commonly note that they review site visit reports, contracts, corrective
         action plans, and/or audits conducted by the grantee, but only when they go on-site or when
         there is a problem. Only two project officers specifically mention that they review the protocols
         that grantees use to monitor their subgrantees, and one mentions conducting a record review of
         a sample of case files. Additionally, 7 of the 20 selected grantees say that their project officer
         reviews any documentation about how they monitor their subgrantees.

         At the same time, 16 of the 17 project officers generally believe that grantees’ monitoring of
         subgrantees is at least somewhat effective. Five of these project officers add that grantees are
         bound by State or city regulations and/or have good reporting and monitoring systems in place.
         However, four comment that oversight is mixed, and that grantees’ monitoring of subgrantees
         varies.

Neither Title I nor Title II project officers can describe a standard corrective action
process

         Corrective actions are the monitoring plans or technical assistance provisions created by the
         awarding agency in response to grantee vulnerabilities identified through monitoring. Our
         document review found that none of the project officers had corrective action plans for any of
         the 20 selected grantees. We did not determine whether there was a need for a corrective
         action to be put in place; however, we are aware that at least one grantee had issues that would
         warrant corrective actions. In total, Title II project officers report that none of their 21 grantees
         that they currently monitor have corrective action plans, while Title I project officers report they
         have corrective action plans for a total of 5 of the 38 grantees that they currently monitor.

         Based on our discussions, neither Title I nor Title II project officers could describe a standard
         corrective action process. Seven of the nine Title II project officers were unable to describe a
         corrective action process at all. Title I and Title II project officers commonly report that they
         have not used a corrective action and do not have experience with the process. The Title I
         project officers were inconsistent in their descriptions and offered explanations, including
         technical assistance to formal letters with timelines for correcting potential vulnerabilities.


HRSA Monitoring of CARE Act Grantees                  12                                       OEI-02-01-00640
HRSA provides limited support to project officers to systematically
monitor grantees

Little guidance is provided on how project officers should monitor

         The HIV/AIDS Bureau provides little guidance to project officers about how to specifically
         monitor Title I and Title II grantees. We found that, beyond the HIV/AIDS Bureau project
         officer position description and the site visit protocol discussed below, there are no specific
         guidelines for how project officers should monitor. Further, project officers have differing ideas
         about their role, particularly regarding the monitoring of fiscal information and the monitoring of
         subgrantees. As a result, project officers monitor grantees differently, depending upon their
         skills, competency, expertise, and commitment.

         Specifically, 4 of the 17 project officers note that more standardization and guidance would be
         helpful. They state that setting standards and more explicit guidelines would allow monitoring to
         be applied more consistently. One of the four project officers suggests that guidelines would be
         particularly useful if they describe how grantees should monitor subgrantees and how project
         officers should monitor grantees’ fiscal performance.

         Further, we found that the site visit protocol for Titles I and II, which provides some guidance
         regarding how project officers should conduct site visits, could be more specific. The protocols
         have a list of questions to indicate whether there is evidence that the grantee has certain internal
         controls in place. For example, it confirms whether the grantee has defined program and fiscal
         administrative responsibilities, and whether the grantee has provided an organization chart. The
         protocols do not provide guidance on which documents to review on-site or how to assess how
         the grantee is actually implementing its policies and procedures. Seven of the 17 project
         officers suggest that the site visit standards and protocols should be revisited, to perhaps make
         them more prescriptive and better tools for project officers to uncover underlying grantee
         issues.

No ongoing training is offered for project officers

         Project officers do not receive ongoing training on how to monitor their grantees. Six project
         officers comment that HRSA could provide more training to make monitoring more effective.
         One notes that project officers are mostly self-taught, and that they are not given guidance.
         Another project officer suggests that they could use training about how to ask questions that
         better investigate what grantees are doing and to identify potential problems. Three project
         officers comment that promoting more exchange of information between project officers would
         be valuable.

HRSA Monitoring of CARE Act Grantees                 13                                       OEI-02-01-00640
         HRSA officials also recognize the need to enhance training. As one official notes, project
         officer training needs to be updated and focused on core issues as well as program specific
         issues. The official further notes the need to standardize and make the information that project
         officers provide to grantees consistent, so that they will represent the agency with a single voice.
         Another official reports that project officer training needs to be improved, specifically focusing
         on closer contract monitoring and attention to detail.

HRSA has initiated few corrective actions

         Interviews with HRSA officials indicate that the HIV/AIDS Bureau does not frequently initiate
         corrective actions (other than providing technical assistance) for grantees that fail to meet
         requirements. HRSA officials on only two occasions have sent a letter to the chief elected
         official of the grant addressing their non-compliance. In addition, for only two grantees have
         they ever restricted the drawdown of the grant funds.

         Interviews with project officers provide additional evidence that the Bureau is reluctant to take
         action against grantees when there is a problem. Seven of the 17 project officers express this
         concern. As one project officer comments, the Bureau sees its role as collaborative and does
         not believe it has any authority to enforce compliance with grant requirements. Another project
         officer notes that “we receive little support when we find something wrong.” One grantee
         further notes that there is little follow up and no real consequences if a grantee is doing
         something wrong.

Little continuity exists among project officers

         Six of the 20 grantees note that there is a high turnover rate among project officers, and that
         turnover hinders monitoring. One grantee explains that it has had five project officers in the
         past 4 years, while another mentions going a number of months without a project officer. A
         third adds that they do not know their current project officer. Grantees commonly note that
         continuity is important to understanding the complexities of the grant and is key to effective
         monitoring. Additionally, two HRSA officials note that the turnover rate is particularly high for
         Title II project officers, making monitoring difficult.

         Little continuity also exists between Title I project officers and the grantees they monitor. We
         found that these project officers are rotated among grantees every 2 years, making it unlikely
         that they ever conduct two monitoring site visits of the same grantee. Three project officers
         from both Titles suggest that more contact with the prior project officer of the grant would help
         compensate for the lack of continuity.




HRSA Monitoring of CARE Act Grantees                 14                                       OEI-02-01-00640
Coordination between Title I and Title II project officers is limited

         Prior to December 2002, Title I and Title II were managed differently, which made
         coordination between project officers difficult. Title I project officers were located in a central
         office and were typically responsible for only Title I grantees. They generally monitored
         between 4 and 5 grantees and reported that they spend almost 100 percent of their time on
         Title I grantees. In contrast, Title II project officers were located in the regions and were
         responsible for a number of other programs, including Health Centers, National Health Service
         Corps, State Primary Care, Maternal and Child Health Block Grants, and Community Access
         Programs. Title II project officers typically managed between 1 and 6 Title II grantees and
         reported that they spend between 5 and 20 percent of their time on Title II grantees.

         Twelve of the 17 project officers confirm that they do not coordinate their monitoring activities
         in any way with the project officers from the other Title. Although the two Titles often fund the
         same subgrantees and have overlapping geographic areas, there is little communication between
         project officers. As one project officer comments, “the two programs are very disconnected
         and there are turf issues.” A HRSA official notes that coordination between headquarters and
         Title I and Title II and ADAP does not happen very often and needs attention.




HRSA Monitoring of CARE Act Grantees                 15                                       OEI-02-01-00640
                           RECOMMENDATIONS

         The findings are based on documents from 10 Title I and 10 Title II grantees and interviews
         with project officers who are responsible for 38 of the 51 Title I grants and 21 of the 54 Title II
         grants. These findings indicate that HRSA needs to strengthen its oversight of Title I and Title
         II grantees. We are aware that since this inspection was conducted, HRSA has consolidated
         its grants management offices, relocated most Title II monitoring responsibilities from regional
         offices to headquarters, and redefined the Office of Field Operations as the Office of
         Performance Review. These changes may better position the agency to address the following
         recommendations. Specifically, we recommend that HRSA:

         •	        Specify and enforce standards and guidelines for how project officers should monitor
                   grantees

         •         Address ongoing training for project officers

         •         Standardize a corrective action process and address grantee issues more formally

         •         Increase frequency and comprehensiveness of site visits

         •         Improve project officer continuity

         •         Improve coordination between Title I and Title II oversight staff

Agency Comments

         We received comments on our draft report from HRSA. The full text of these comments can
         be found in Attachment C. HRSA concurs with our recommendations, and adds that significant
         administrative changes have occurred since this inspection was conducted. These changes may
         better position the agency to address the grantee monitoring activities discussed in this report.

         HRSA also describes several concerns with this report. In general, HRSA is concerned that
         the report does not distinguish between HRSA and the HIV/AIDS Bureau, the agency directly
         responsible for administering the Ryan White CARE Act. At the time data were collected, Title
         I grantees were monitored from the HIV/AIDS Bureau in the Rockville headquarters office,
         while Title II grantees were monitored from the Office of Field Operations in regional offices
         and outside of the HIV/AIDS Bureau. Instances where we address HRSA are meant to
         include both the HIV/AIDS Bureau and the Office of Field Operations. Additionally, HRSA is
         concerned that the report does not distinguish


HRSA Monitoring of CARE Act Grantees                    16                                   OEI-02-01-00640
         between Title I and Title II project officers. We do make distinctions in the report between the
         two, however, where differences were apparent in the data analysis.

         Finally, HRSA is concerned that our report does not address the role of the Grants
         Management Officer in monitoring CARE Act grants, adding that administrative restructuring of
         the Grants Management Office occurred in October 2003. We note in the report that the
         scope of our inspection is limited to the role of the project officer, and agree that the Grants
         Management Officer perspective would provide a more complete evaluation. However, during
         an interview conducted as part of the study design we were told that the office would be
         consolidated in June 2002. This interview was conducted in December 2001, and the decision
         to limit the scope of the inspection was made at that time.




HRSA Monitoring of CARE Act Grantees                17                                     OEI-02-01-00640
                                                                               Appendix A


                        HRSA/HAB ORGANIZATIONAL STRUCTURE


                                                   Administrator




        Bureau of                                            HIV/AIDS
                                       Bureau of                                 Maternal and Child
     Primary Health                                           Bureau
                                        Health                                    Health Bureau
         Care


                                                                        Division of Community Based
                                                                                  Programs
                 HRSA STAFF OFFICES

           Office of Communications
           Office of Equal Opportunity and Civil Rights                 Office of Policy and Program
           Office of Management and Program Support                             Development
           Office of Legislation
           Office of Planning and Evaluation                                Division of Service
           Office of Information Technology                                      Systems
           Office of Performance Review*
           Office of Minority Health
           Officer of Rural Health Policy                                Office for the Advancement
           Office of Special Programs                                            of Telehealth
           Office of Financial Policy and Oversight
           Office of International Health Affairs
                                                                         Office of Program Support
           *formerly Office of Field Operations

                                                                            Office of Science and
                                                                                Epidemiology


                                                                           Division of Training and
                                                                            Technical Assistance




HRSA Monitoring of CARE Act Grantees                    18                                 OEI-02-01-00640
                                                                                Appendix B


                                 OIG Grants Oversight Framework

Requirements
       •	    What performance and financial requirements has the Operating Division developed for
             the grantee?
       •     Do grantees receive the performance and financial requirements?
       •     Do grantees fully understand the performance and financial requirements?

    Reports
       •           Are performance and financial reports received in a timely manner?
       •           Are performance and financial reports clearly presented and complete?
       •           Are audits completed in a timely fashion?
       •	          Is the Operating Division sharing reports, as appropriate, with the Department and
                   Office of Audit Services?

    Reviews
        •	         Has the Operating Division designated responsibilities for the grants management and
                   program officers?
          •        Are performance and financial reports reviewed in a timely fashion?
          •        Are there criteria for evaluating performance and financial reports?
          •        How is information in performance and financial reports verified?
          •        Are site visits conducted on schedule, with standard guidelines?
          •        What other contact/communication is there between grantee and Operating Division?

    Enforcement
        •    What enforcement authority does the Operating Division have?
        •    Are there standards for addressing identified problems?
        •    What actions has the Operating Division taken to address problems with grantees?




HRSA Monitoring of CARE Act Grantees                 19                                     OEI-02-01-00640
                                                                            Appendix C

                                       Agency Comments


In this appendix, we present the full text of comments from the Health Resources and Services
Administration (HRSA).




HRSA Monitoring of CARE Act Grantees              20                                    OEI-02-01-00640
HRSA Monitoring of CARE Act Grantees   21   OEI-02-01-00640
HRSA Monitoring of CARE Act Grantees   22   OEI-02-01-00640
HRSA Monitoring of CARE Act Grantees
HRSA Monitoring of CARE Act Grantees
HRSA Monitoring of CARE Act Grantees   25   OEI-02-01-00640
HRSA Monitoring of CARE Act Grantees   26   OEI-02-01-00640
HRSA Monitoring of CARE Act Grantees   27   OEI-02-01-00640
HRSA Monitoring of CARE Act Grantees   28   OEI-02-01-00640
HRSA Monitoring of CARE Act Grantees   29   OEI-02-01-00640
HRSA Monitoring of CARE Act Grantees   30   OEI-02-01-00640
                           ACKNOWLEDGMENTS


    This report was prepared under the direction of John I. Molnar, Regional Inspector General for
    Evaluation and Inspections in New York, and Jodi D. Nudelman, Assistant Regional Inspector
    General. Other principal Office of Evaluation and Inspections staff who contributed include:

                   Vincent Greiber, Project Leader        Alan Levine, Program Specialist




HRSA Monitoring of CARE Act Grantees                 31                                 OEI-02-01-00640
